     FY 
    2009 
 

             

       Federal Maritime 
       Commission 
       Audited Financial Statements 
       A10‐01 
        
        
        




                                                             




                                Audited Financial Statements 
                            FEDERAL MARITIME COMMISSION 
                                                      FY 2009 
                     FEDERAL MARITIME COMMISSION
                         FINANCIAL STATEMENTS
          FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2009 AND 2008




TABLE OF CONTENTS


INSPECTOR GENERAL TRANSMITTAL LETTER

INDEPENDENT AUDITOR'S REPORT

FINANCIAL SECTION

  BALANCE SHEET………………………………………………………………………….………....1

  STATEMENT OF NET COST…………………………………………………………………….…..2

  STATEMENT OF CHANGES IN NET POSITION…………….………………………………….…3

  STATEMENT OF BUDGETARY RESOURCES………………………………………………….…4

  STATEMENT OF CUSTODIAL ACTIVITY………………………………………………………...5

  NOTES TO THE FINANCIAL STATEMENTS……………………………………………………...6
                              FEDERAL MARITIME COMMISSION
                                  Office of Inspector General
                                 Washington, DC 20573-0001

                                      November 6, 2009


Office of Inspector General



The Honorable Richard A. Lidinsky, Jr.
Chairman
Federal Maritime Commission


I am pleased to provide you with the attached audit report required by the Chief Financial
Officers (CFO) Act of 1990, as amended, which presents an unqualified opinion on the
Federal Maritime Commission’s (FMC) FY 2009 financial statements. The audit results
indicate that FMC has established an internal control structure that facilitates the
preparation of reliable financial and performance information. We commend FMC for the
noteworthy accomplishment of attaining an unqualified (clean) opinion for the 6th
consecutive year.

The independent public accounting firm of Dembo Jones Healy Pennington & Marshall,
P.C. (DJHPM) performed the audit of FMC’s financial statements for the fiscal year
ended September 30, 2009. The contract required that the audit be done in accordance
with U.S. generally accepted government auditing standards and OMB audit guidance.

In its audit of the Federal Maritime Commission, DJMPM found:

  • the financial statements were fairly presented, in all material respects, in conformity
     with U.S. generally accepted accounting principles;

  • the FMC had effective internal control over financial reporting (including
     safeguarding assets) and compliance with laws and regulations; and

  • no reportable noncompliance with laws and regulations tested.

To fulfill our responsibilities under the CFO Act and related legislation for ensuring the
quality of the audit work performed, we monitored DJHPM’s audit of FMC’s FY 2009
financial statements by:

    •   reviewing DJHPM’s approach and planning of the audit;
    •   evaluating the qualifications and independence of its auditors;
    •   monitoring the progress of the audit at key points;
FINANCIAL SECTION
                                      FEDERAL MARITIME COMMISSION
                                              BALANCE SHEET
                                      AS OF SEPTEMBER 30, 2009 AND 2008
                                                 (In Dollars)

                                                                          2009              2008
 Assets:
  Intragovernmental:
    Fund Balance With Treasury (Note 2)                             $      4,777,674    $    4,062,134
  Total Intragovernmental                                                  4,777,674         4,062,134

  Accounts Receivable (Note 3)                                                70,222            64,579
  Property, Equipment, and Software, Net (Note 4)                            202,500             2,112
 Total Assets                                                       $      5,050,396    $    4,128,825

 Liabilities (Notes 5 and 6):
   Intragovernmental:
     Accounts Payable (Note 6)                                      $       309,177     $      36,647
     Employer Contributions and Payroll Taxes Payable                       138,468           118,028
     Unfunded FECA Liability                                                  1,968             1,968
     Custodial Liability                                                     69,236            63,593
   Total Intragovernmental                                                  518,849           220,236

  Accounts Payable (Note 6)                                                  231,925           273,627
  Accrued Payroll and Leave                                                  865,970           914,920
  Employer Contributions and Payroll Taxes Payable                            17,568            12,124
  Unfunded Leave                                                           1,075,533         1,030,319
  Actuarial FECA Liability                                                     5,249                 -
 Total Liabilities                                                  $      2,715,094    $    2,451,226

 Net Position:
  Unexpended Appropriations                                         $      3,214,566    $    2,706,788
  Cumulative Results of Operations                                          (879,264)       (1,029,189)
  Total Net Position                                                $      2,335,302    $    1,677,599
 Total Liabilities and Net Position                                 $      5,050,396    $    4,128,825




The accompanying notes are an integral part of these statements.

                                                         1
                                FEDERAL MARITIME COMMISSION
                                    STATEMENT OF NET COST
                     FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2009 AND 2008
                                           (In Dollars)

                                                                       2009             2008
Program Costs:
    Office of Administration                                       $    6,237,122   $    6,088,432
    Office of Operations                                               10,304,424        9,540,047
    Formal Proceedings                                                  6,082,905        5,627,251
    Office of Inspector General                                           529,935          597,799
    Office of Equal Employment Opportunity                                151,287          161,903
Net Cost of Operations (Note 9)                                    $   23,305,673   $   22,015,432




The accompanying notes are an integral part of these statements.

                                                         2
                                FEDERAL MARITIME COMMISSION
                            STATEMENT OF CHANGES IN NET POSITION
                     FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2009 AND 2008
                                           (In Dollars)

                                                                       2009               2008

 Cumulative Results of Operations:
 Beginning Balances                                                $    (1,029,189)   $    (1,004,596)

 Budgetary Financing Sources:
  Appropriations Used                                                  22,258,507         20,906,472

 Other Financing Sources (Non-Exchange):
  Imputed Financing Sources (Note 10)                                   1,197,091          1,084,367

 Total Financing Sources                                               23,455,598         21,990,839
 Net Cost of Operations (Note 9)                                       23,305,673         22,015,432
 Net Change                                                               149,925            (24,593)

 Cumulative Results of Operations                                  $     (879,264)    $    (1,029,189)

 Unexpended Appropriations:
 Beginning Balances                                                $    2,706,788     $    1,596,624

 Budgetary Financing Sources:
  Appropriations Received                                               22,800,000         22,072,000
  Other Adjustments                                                        (33,715)           (55,364)
  Appropriations Used                                                  (22,258,507)       (20,906,472)

 Total Budgetary Financing Sources                                        507,778          1,110,164

 Total Unexpended Appropriations                                   $    3,214,566     $    2,706,788

 Net Position                                                      $    2,335,302     $    1,677,599




The accompanying notes are an integral part of these statements.

                                                         3
                                FEDERAL MARITIME COMMISSION
                             STATEMENT OF BUDGETARY RESOURCES
                     FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2009 AND 2008
                                           (In Dollars)

                                                                       2009             2008
Budgetary Resources:
Unobligated Balance Brought Forward, October 1                     $     747,665    $     210,894
Recoveries of Prior Year Unpaid Obligations                              171,489          210,984
Budget Authority
 Appropriation                                                         22,800,000       22,072,000
Less: Permanently Not Available                                            33,715           55,364
Total Budgetary Resources                                          $   23,685,439   $   22,438,514

Status of Budgetary Resources:
Obligations Incurred
  Direct (Note 12)                                                 $   22,817,981   $   21,690,849
Unobligated Balance
  Apportioned                                                              66,284          447,579
Unobligated Balance Not Available                                         801,174          300,086
Total Status of Budgetary Resources                                $   23,685,439   $   22,438,514

Change in Obligated Balance:
Obligated Balance, Net
 Unpaid Obligations, Brought Forward, October 1                    $    3,314,469   $    2,632,375
Obligations Incurred Net                                               22,817,981       21,690,849
Less: Gross Outlays                                                    22,050,745       20,797,771
Less: Recoveries of Prior Year Unpaid
 Obligations, Actual                                                     171,489          210,984
Obligated Balance, Net, End of Period
 Unpaid obligations                                                     3,910,216        3,314,469
 Total, Unpaid Obligated Balance, Net, End of Period               $    3,910,216   $    3,314,469

Net Outlays:
 Gross Outlays                                                     $   22,050,745   $   20,797,771
 Net Outlays                                                       $   22,050,745   $   20,797,771




The accompanying notes are an integral part of these statements.

                                                         4
                                 FEDERAL MARITIME COMMISSION
                               STATEMENT OF CUSTODIAL ACTIVITY
                     FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2009 AND 2008
                                           (In Dollars)

                                                                       2009            2008

  Revenue Activity:
   Total Cash Collections (Note 14)                                $   1,115,241   $     478,250
   Accrual Adjustments                                                     5,643          (1,728)
   Total Custodial Revenue                                             1,120,884         476,522


  Disposition of Collections:
   Transferred to Others (by Recipient)                                1,115,241         478,250
   Increase/(Decrease) in Amounts Yet to be Transferred                    5,643          (1,728)
   Total Disposition of Collections                                    1,120,884         476,522
   Net Custodial Activity                                          $           -   $           -




The accompanying notes are an integral part of these statements.

                                                          5
                   FEDERAL MARITIME COMMISSION
                 NOTES TO THE FINANCIAL STATEMENTS
NOTE 1. SUMMARY OF SIGNIFICANT                          vessel operators demonstrate adequate
ACCOUNTING POLICIES                                     financial responsibility for casualty and
                                                        nonperformance.
A. Reporting Entity
                                                        FMC is composed of five Commissioners
The Federal Maritime Commission (FMC) was               appointed for five-year terms by the President
established as an independent regulatory                with the advice and consent of the Senate. The
agency on August 12, 1961.           FMC is             President designates one of the Commissioners
responsible for the regulation of ocean borne           to serve as Chairman, who is also the chief
transportation in the foreign commerce of the           executive and administrative officer of FMC.
United States (U.S.). The principal statutes or
statutory provisions administered by the                Congress enacts appropriations to permit FMC
Commission are the Shipping Act of 1984, the            to incur obligations for authorized purposes.
Foreign Practices Act of 1988, and section 19           In fiscal years 2009 and 2008, FMC was
of the Merchant Marine Act of 1920, and                 accountable for General Fund appropriations.
sections 2 and 3 of Public Law No. 89-777.              FMC recognizes budgetary resources as assets
Most of these statutes were modified by the             when cash (funds held by the U.S. Treasury) is
passage of the Ocean Shipping Reform Act of             made available through the Department of
1998, which took effect in 1999.                        Treasury General Fund warrants.

FMC monitors the activities of ocean common             General Funds are accounts used to record
carriers,     marine     terminal      operators,       financial    transactions     arising     under
conferences, ports and ocean transportation             congressional     appropriations    or    other
intermediaries (OTIs) (non-vessel-operating             authorizations to spend general revenues.
common carriers and ocean freight forwarders)
who operate in the foreign commerce of the              General Fund miscellaneous receipts are
U.S. to ensure they maintain just and                   accounts established for receipts of non-
reasonable practices. FMC maintains a trade             recurring activity, such as fines, penalties, fees
monitoring and enforcement program designed             and other miscellaneous receipts for services
to     detect   and    appropriately     remedy         and benefits.
malpractices and violations. FMC monitors
the laws and practices of foreign governments,          FMC makes custodial collections and holds
which could be potentially restrictive and              custodial receivables that are non-entity assets
identifies carriers owned or controlled by              and are transferred to Treasury at fiscal year
foreign governments; processes and reviews              end.
agreements and service contracts for
compliance with statutory requirements; and             B. Basis of Presentation
reviews common carriers’ privately published
tariff systems for accessibility and accuracy as        The financial statements have been prepared to
required by the Ocean Shipping Reform Act of            report the financial position, net cost of
1998. FMC also issues licenses to qualified             operations, changes in net position, and the
OTIs in the U.S., ensures that all OTIs are             status and availability of budgetary resources
bonded or maintain other evidence of financial          of the FMC. The statements are a requirement
responsibility, and ensures that passenger              of the Accountability of Tax Dollars Act of


                                                    6
2002. They have been prepared from, and are           pursuant to other OMB directives that are
fully supported by, the books and records of          primarily used to monitor and control FMC's
FMC in accordance with the hierarchy of               use of budgetary resources.
accounting principles generally accepted in the
United States of America, standards approved          E. Revenues & Other Financing Sources
by the principals of the Federal Accounting
Standards Advisory Board (FASAB), OMB                 Congress enacts annual appropriations to be
Circular    A-136,     Financial      Reporting       used, within statutory limits, for operating and
Requirements and FMC accounting policies              capital expenditures. Additional revenues are
which are summarized in this note. These              obtained from service fees and reimbursements
statements, with the exception of the Statement       from other government entities and the public,
of Budgetary Resources, are different from            but these revenues are not available to the
financial management reports, which are also          agency to fund operating expenses.
prepared pursuant to OMB directives that are
used to monitor and control FMC’s use of              Appropriations are recognized as a financing
budgetary resources.                                  source when expended.         Revenues from
                                                      service fees associated with reimbursable
The statements consist of the Balance Sheet,          agreements are recognized concurrently with
Statement of Net Cost, Statement of Changes           the recognition of accrued expenditures for
in Net Position, Statement of Budgetary               performing the services.         Appropriations
Resources, and the Statement of Custodial             expended for capitalized property and
Activity. In accordance with OMB Circular             equipment are recognized as expenses when an
A-136, the financial statements and associated        asset is consumed in operations.
notes are presented on a comparative basis.
Unless specified otherwise, all amounts are           FMC recognizes as an imputed financing
presented in dollars.                                 source, the amount of accrued pension and
                                                      post-retirement benefit expenses for current
C. Budgets and Budgetary Accounting                   employees paid on its behalf by the Office of
                                                      Personnel Management (OPM).
Congress usually enacts appropriations to
permit FMC to incur obligations for specified         F. Taxes
purposes. In fiscal years 2009 and 2008, the
FMC was accountable for General Fund                  FMC, as a Federal entity, is not subject to
appropriations.     The agency recognizes             federal, state, or local income taxes, and,
budgetary resources as assets when cash (funds        accordingly, no provision for income taxes has
held by the U.S. Treasury) is made available          been recorded in the accompanying financial
through the Department of Treasury General            statements.
Fund warrants.
                                                      G. Fund Balance with Treasury
D. Basis of Accounting
                                                      The U.S. Treasury processes cash receipts and
Transactions are recorded on both an accrual          disbursements. Funds held at the Treasury are
accounting basis and a budgetary basis. Under         available to pay agency liabilities. FMC does
the accrual method, revenues are recognized           not maintain cash in commercial bank
when earned, and expenses are recognized              accounts or foreign currency balances.
when a liability is incurred, without regard to
receipt or payment of cash.          Budgetary        H. Accounts Receivable
accounting facilitates compliance with legal
requirements on the use of federal funds.             Accounts receivable consists of amounts owed
Balances on these statements may therefore            to FMC by other Federal agencies, its
differ from those on financial reports prepared       employees and the general public. Accounts

                                                  7
receivable in the Salaries and Expense Fund              J. Advances and Prepaid Charges
represent employee-related receivables. An
allowance      for    uncollectible     accounts         Advance payments are generally prohibited by
receivable from the public is established when,          law. There are exceptions, such as some
based upon a review of outstanding accounts,             reimbursable agreements, subscriptions, and
management determines that collection is                 payments to contractors and employees.
unlikely to occur considering the debtor’s               Payments made in advance of the receipt of
ability to pay. Debts six months or more past            goods and services are recorded as advances or
due are referred to the Department of Treasury           prepaid charges at the time of prepayment and
for follow-up collection efforts in keeping with         recognized as expenses when the related goods
the Debt Collection Improvement Act of 1996              and services are received.
(DCIA).       Treasury’s Debt Management
Services (DMS) administers the program and               K. Liabilities
deducts 18 percent from amounts ultimately
collected for its fee. Collections, net of fees,         Liabilities represent the amount of monies or
are returned to the FMC for remittance to the            other resources likely to be paid by the FMC as
general fund of the Treasury.                            a result of transactions or events that have
                                                         already occurred. No liability can be paid,
I. Property, Equipment, and Software                     however, absent an appropriation or other
                                                         funding. Liabilities covered by budgetary or
Property, equipment and software represent               other resources are those liabilities for which
furniture, fixtures, equipment, and information          Congress has appropriated funds or funding is
technology (IT) hardware and software which              otherwise available to pay amounts due.
are recorded at original acquisition cost and are        Liabilities for which an appropriation has not
depreciated or amortized using the straight-line         been enacted or other funds received are,
method over their estimated useful lives.                therefore, classified as not covered by
Major alterations and renovations are                    budgetary resources.       The liquidation of
capitalized, except wherein the tenant                   liabilities not covered by budgetary or other
improvement allowance specified in lease                 resources is dependent on future congressional
agreements covers the costs of certain                   appropriations or other funding. There is no
renovations. Maintenance and repair costs are            certainty that the appropriation will be enacted.
expensed as incurred. FMC's capitalization               Intragovernmental liabilities are claims against
threshold is $25,000 for individual purchases.           FMC by other federal agencies. Liabilities not
Applicable standard governmental guidelines              covered by budgetary resources on the Balance
regulate the disposal and convertibility of              Sheet are equivalent to amounts reported as
agency property, equipment and software. The             components requiring or generating resources
useful life classifications for capitalized assets       on the Reconciliation of Net Cost to Budget.
are as follows:                                          Additionally, the government, acting in its
                                                         sovereign capacity, can abrogate liabilities.
Description            Useful Life (years)
Leasehold Improvements          5                        L. Accounts Payable
Office Furniture                5                        Accounts payable consists primarily of
Computer Equipment              5                        amounts owed to other Federal agencies and
Office Equipment                5                        the public for contracts for goods or services,
IT Software                     5                        such as leases, utilities, telecommunications
                                                         and consulting and support services.




                                                     8
M. Annual, Sick, and Other Leave                         unreimbursed cost paid by DOL for
                                                         compensation to recipients under the FECA.
Annual leave is accrued as it is earned, and the
accrual is reduced as leave is taken. The                O. Retirement Plans
balance in the accrued leave account is
adjusted to reflect current pay rates. Liabilities       FMC employees participate in either the Civil
associated with other types of vested leave,             Service Retirement System (CSRS) or the
including compensatory, restored leave, and              Federal Employees' Retirement System
sick leave in certain circumstances, are accrued         (FERS). The employees who participate in
at year-end, based on latest pay rates and               CSRS are beneficiaries of FMC's contribution,
unused hours of leave. Funding will be                   equal to seven percent of pay, distributed to
obtained from future financing sources to the            their annuity account in the Civil Service
extent that current or prior year appropriations         Retirement and Disability Fund.
are not available to fund annual and other
types of vested leave earned but not taken.              FERS went into effect on January 1, 1987.
Nonvested leave is expensed when used. Any               FERS and Social Security automatically cover
liability for unused sick leave that is accrued          most employees hired after December 31,
but not taken by a Civil Service Retirement              1983. Employees hired prior to January 1,
System       (CSRS)-covered      employee       is       1984 elected to join either FERS and Social
transferred to the Office of Personnel                   Security, or remain in CSRS. All employees
Management upon the retirement of that                   are eligible to contribute to the Thrift Savings
individual. No credit is given for sick leave            Plan (TSP). For those employees participating
balances upon the retirement of Federal                  in the FERS, a TSP account is automatically
Employee’s Retirement System (FERS)-                     established and FMC makes a mandatory one
covered employees.                                       percent contribution to this account.         In
                                                         addition, FMC makes matching contributions,
N. Accrued and Actuarial Workers’                        ranging from one to four percent, for FERS
Compensation                                             eligible employees who contribute to their TSP
                                                         accounts. Matching contributions are not
The Federal Employees' Compensation Act                  made to the TSP accounts established by
(FECA) administered by the U.S. Department               CSRS employees. For FERS participants,
of Labor (DOL) addresses all claims brought              FMC also remits the employer's share of the
by FMC employees for on-the-job injuries. A              required contribution.
liability is recorded for actual and estimated
future payments to be made for workers'                  FERS employees and certain CSRS
compensation pursuant to the FECA. The                   reinstatement employees are eligible to
DOL bills each agency annually as its claims             participate in the Social Security program after
are paid, and the actual costs incurred are              retirement.
reflected as a liability to the agency. Payment
of these bills is deferred for two years to allow        FMC recognizes the imputed cost of pension
for funding through the budget process.                  and other retirement benefits during the
Similarly, employees that the FMC terminates             employees’ active years of service. OPM
without cause may receive unemployment                   actuaries determine pension cost factors by
compensation          benefits      under      the       calculating the value of pension benefits
unemployment insurance program also                      expected to be paid in the future and
administered by the DOL, which bills each                communicate these factors to FMC for current
agency quarterly for paid claims. Future                 period expense reporting. OPM also provides
appropriations will be used for the                      information regarding the full cost of health
reimbursement to DOL. The liability consists             and life insurance benefits. FMC recognized
of (1) the net present value of estimated future         the offsetting revenue as imputed financing
payments calculated by the DOL, and (2) the

                                                     9
sources to the extent these expenses will be               recognized by the receiving entity for costs
paid by OPM.                                               that are paid by other entities.       FMC
                                                           recognized imputed costs and financing
FMC does not report on its financial                       sources in fiscal years 2009 and 2008 to the
statements information pertaining to the                   extent directed by OMB.
retirement plans covering its employees.
Reporting amounts such as plan assets,                     S. Contingencies
accumulated plan benefits, and related
unfunded liabilities, if any, is the responsibility        Liabilities are deemed contingent when the
of the OPM.                                                existence or amount of the liability cannot be
                                                           determined with certainty pending the outcome
P. Use of Estimates                                        of future events. FMC recognizes contingent
                                                           liabilities, in the accompanying balance sheet
The preparation of the accompanying financial              and statement of net cost, when it is both
statements in accordance with generally                    probable and can be reasonably estimated.
accepted accounting principles requires                    FMC discloses contingent liabilities in the
management to make certain estimates and                   notes to the financial statements when the
assumptions that affect the reported amounts               conditions for liability recognition are not met
of assets and liabilities and disclosure of                or when a loss from the outcome of future
contingent assets and liabilities at the date of           events is more than remote. In some cases,
the financial statements and the reported                  once losses are certain, payments may be made
amounts of revenues and expenses during the                from the Judgment Fund maintained by the
reporting period. Actual results could differ              U.S. Treasury rather than from the amounts
from those estimates.                                      appropriated to FMC for agency operations.
                                                           Payments from the Judgment Fund are
Q. Net Position                                            recorded as an “Other Financing Source” when
                                                           made.
Net position is the residual difference between
assets and liabilities and is comprised of                 T. Expired Accounts and Cancelled
unexpended appropriations and cumulative                   Authority
results    of    operations.        Unexpended
appropriations represent the amount of                     Unless otherwise specified by law, annual
unobligated and unexpended budget authority.               authority expires for incurring new obligations
Unobligated balances are the amount of                     at the beginning of the subsequent fiscal year.
appropriations or other authority remaining                The account in which the annual authority is
after deducting the cumulative obligations                 placed is called the expired account. For five
from the amount available for obligation. The              fiscal years, the expired account is available
cumulative results of operations is the net                for expenditure to liquidate valid obligations
result of FMC’s operations since inception.                incurred during the unexpired period.
                                                           Adjustments are allowed to increase or
R. Imputed Costs/Financing Sources                         decrease valid obligations incurred during the
                                                           unexpired period but not previously reported.
Federal Government entities often receive                  At the end of the fifth expired year, the expired
goods and services from other Federal                      account is cancelled.
Government entities without reimbursing the
providing entity for all the related costs. In
addition, Federal Government entities also
incur costs that are paid in total or in part by
other entities. An imputed financing source is



                                                      10
NOTE 2. FUND BALANCE WITH TREASURY

Fund balance with Treasury account balances as of September 30, 2009 and 2008 were as
follows:

Fund Balances:
                                                               2009                    2008
Appropriated Funds                                         $    4,777,674          $    4,062,134
Total                                                      $    4,777,674          $    4,062,134

Status of Fund Balance with Treasury:
                                                               2009                    2008
Unobligated Balance
   Available                                               $        66,284         $       447,579
   Unavailable                                                     801,174                 300,086
Obligated Balance Not Yet Disbursed                              3,910,216               3,314,469
Total                                                      $     4,777,674         $     4,062,134

The available unobligated fund balances represent the current-period amount available for
obligation or commitment. At the start of the next fiscal year, this amount will become part of the
unavailable balance as described in the following paragraph.

The unavailable unobligated fund balances represent the amount of appropriations for which the
period of availability for obligation has expired. These balances are available for upward
adjustments of obligations incurred only during the period for which the appropriation was
available for obligation or for paying claims attributable to the appropriations.

The obligated balance not yet disbursed includes accounts payable / accrued expenses and
undelivered orders that have reduced unexpended appropriations but have not yet decreased the
cash balance on hand. (see also Note 13)

NOTE 3. ACCOUNTS RECEIVABLE

Accounts receivable balances as of September 30, 2009 and 2008 were as follows:

                                                               2009                    2008
With the Public
Contractor/Vendor Related Receivables                     $        56,515         $       56,421
Interest Receivable                                                 5,085                  2,796
Penalties, Fines, and Administrative Fees Receivable                7,636                  4,204
Employee-Related Receivable(s)                                        986                  1,158
Total Accounts Receivable                                 $        70,222         $       64,579

The accounts receivable is primarily made up of a balance from one non-federal vendor for
$56,421 that represents an amount due from a contractor for unsupported claims that were paid by
the agency.




                                                11
NOTE 4. PROPERTY, EQUIPMENT, AND SOFTWARE

Property, equipment, and software account balances as of September 30, 2009 and 2008 were as
follows:

Schedule of Property, Equipment, and Software as of September 30, 2009

                                                           Accumulated
                                     Acquisition           Amortization/            Ne t Book
Major Class                             Cost               De pre ciation            Value
Leasehold Improvements              $     225,000          $       22,500         $      202,500
Furniture & Equipment                     291,938                 291,938                      -
Total                               $     516,938          $      314,438         $      202,500

Schedule of Property, Equipment, and Software as of September 30, 2008

                                                           Accumulated
                                     Acquisition           Amortization/             Ne t Book
Major Class                             Cost               De pre ciation             Value
Furniture & Equipment               $     291,938          $      289,826          $        2,112
Total                               $     291,938          $      289,826          $        2,112



NOTE 5. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES

The liabilities on the FMC's Balance Sheet as of September 30, 2009 and 2008, include liabilities
not covered by budgetary resources. Congressional action is needed before budgetary resources
can be provided. Although future appropriations to fund these liabilities are likely and
anticipated, it is not certain that appropriations will be enacted to fund these liabilities.

                                                                 2009                   2008
Intragovernmental – FECA                                    $         1,968        $         1,968
Unfunded Leave                                                    1,075,533              1,030,319
Actuarial FECA                                                        5,249                      -
Total Liabilities Not Covered by Budgetary Resources        $     1,082,750        $     1,032,287

The Federal Maritime Commission records a liability for future worker's compensation claims
based on data provided from the Department of Labor. The FMC also records a liability for
actual claims paid on its behalf by the DOL.


NOTE 6. ACCOUNTS PAYABLE

Liabilities include both Intragovernmental Accounts Payable and Other Accounts Payable.
Intragovernmental payables are owed to other federal entities for rent, printing costs, and services
of other agencies. In FY09, approximately $225,000 of the Intragovernmental payable of
$309,177 was owed to the General Services Administration for leasehold improvements made to
FMC offices. Other Payables (formerly categorized as "With the Public") are owed to non-
federal sources or to the general public, and include liabilities for general supplies, training,

                                                12
studies, analysis, and/or evaluations, miscellaneous services, and operation and maintenance of
ADP equipment. For fiscal year ending September 30, 2009, the non-federal accounts payable
totals to $231,925.


NOTE 7. LEASES

Operating Leases

FMC occupies office space in seven locations, of which only six of the lease agreements are
required to be accounted for as operating leases. Lease payments are increased annually based on
the adjustments for operating cost and real estate tax escalations. The lease locations and terms
are listed below:

Location                                  Te rm                      Le ase Expiration Date
Hollywood, FL                              23 months                               5/31/2010
San Pedro, CA                                 5 years                              9/30/2011
Washington DC                               10 years                              10/31/2012
Jamaica, NY                                   5 years                                7/1/2013
Houston, TX                                 10 years                               9/14/2018
Seattle, WA                                 10 years                               6/30/2019

The lease amounts vary from year to year depending on the specific lease. The schedule of future
payments for the term of the leases is as follows:

Fiscal Year                                                                       Totals
2010                                                                            $ 2,905,584
2011                                                                               2,910,491
2012                                                                               2,925,935
2013                                                                                 302,768
2014                                                                                  25,933
Thereafter                                                                           114,638
Total Future Payments                                                           $ 9,185,349

The operating lease amount does not include estimated payments for leases with annual renewal
options.


NOTE 8. CONTINGENCIES

There are legal actions pending against FMC in which claims have been asserted that may be
based on action taken by FMC. Management intends to vigorously contest all such claims.
Management believes, based on information provided by legal counsel, that losses, if any, for
these cases would not have a material impact on the Financial Statements. No loss accrual has
been made for these cases outstanding at September 30, 2009.




                                               13
NOTE 9. INTRAGOVERNMENTAL COSTS

Intragovernmental costs represent goods and services exchange transactions made between two
reporting entities within the Federal government, and are in contrast to those with non-federal
entities (the public). Intragovernmental costs include payments to federal vendors for personnel
benefits, rent, utilities, and other services. Payments made to non-federal entities (the public) are
comprised primarily of employee salaries and other services. Such costs are summarized as
follows:

                                                              2009                      2008
Office of Administration
 Intragovernmental Costs                                 $    3,050,365            $     2,844,453
 Public Costs                                                 3,186,757                  3,243,979
   Total Program Costs                                        6,237,122                  6,088,432

Office of Operations
 Intragovernmental Costs                                      3,329,302                  3,005,774
 Public Costs                                                 6,975,122                  6,534,273
   Total Program Costs                                       10,304,424                  9,540,047

Formal Proceedings
  Intragovernmental Costs                                     1,961,167                  1,785,954
  Public Costs                                                4,121,738                  3,841,297
   Total Program Costs                                        6,082,905                  5,627,251

Office of Inspector General
 Intragovernmental Costs                                        150,600                    165,737
 Public Costs                                                   379,335                    432,062
   Total Program Costs                                          529,935                    597,799

Office of Equal Employment Opportunity
 Intragovernmental Costs                                         43,579                     71,152
 Public Costs                                                   107,708                     90,751
   Total Program Costs                                          151,287                    161,903

Total Intragovernmental costs                                 8,535,013                  7,873,070
Total Public costs                                           14,770,660                 14,142,362
   Total Costs                                               23,305,673                 22,015,432
 Total Net Cost                                          $   23,305,673            $    22,015,432




                                                 14
NOTE 10. IMPUTED FINANCING SOURCES

Imputed financing recognizes the costs of future benefits which include health benefits, life
insurance, pension and post-retirement benefit expenses for current employees. The assets and
liabilities associated with such benefits are the responsibility of the administering agency, the
Office of Personnel Management (OPM). For the fiscal years ended September 30, 2009 and
2008, respectively, imputed financing was as follows.

                                                             2009                    2008
Office of Personnel Management                          $     1,197,091         $     1,084,367
Total Imputed Financing Sources                         $     1,197,091         $     1,084,367

NOTE 11. BUDGETARY RESOURCE COMPARISONS TO THE BUDGET OF THE
UNITED STATES GOVERNMENT

The President’s Budget that will include FY09 actual budgetary execution information has not yet
been published. The President’s Budget is scheduled for publication in February 2010 and can be
found at the OMB Web site: http://www.whitehouse.gov/omb/. The 2010 Budget of the United
States Government, with the "Actual" column completed for 2008, has been reconciled to the
Statement of Budgetary Resources and there were no material differences.


NOTE 12. APPORTIONMENT CATEGORIES OF OBLIGATIONS INCURRED

Obligations incurred and reported in the Statement of Budgetary Resources as of September 30,
2009 and 2008 consisted of the following:

                                                            2009                    2008
Direct Obligations, Category A                         $    22,817,981          $   21,690,849
Total Obligations Incurred                             $    22,817,981          $   21,690,849

Category A apportionments distribute budgetary resources by fiscal quarters.


NOTE 13. UNDELIVERED ORDERS AT THE END OF THE PERIOD

Statement of Federal Financial Accounting Standards No. 7, Accounting for Revenue and Other
Financing Sources and Concepts for Reconciling Budgetary and Financial Accounting, states that
the amount of budgetary resources obligated for undelivered orders at the end of the period
should be disclosed. For the fiscal years ended September 30, 2009 and 2008, respectively,
undelivered orders amounted to the following:

                                                            2009                    2008
Undelivered Orders                                    $      2,347,107          $    1,959,123
Total Undelivered Orders                              $      2,347,107          $    1,959,123




                                               15
NOTE 14. CUSTODIAL ACTIVITY

FMC is an administrative agency collecting for the General Fund. As a collecting entity, FMC
measures and reports cash collections and refunds as custodial activity on the Statement of
Custodial Activity. Cash collections result primarily from FMC regulatory activities to include
the assessment of fines and penalties and the payment of license fees by qualified ocean
transportation intermediaries (OTIs) in the U.S. A small portion of amounts collected is for
interest on past due fines, petitions, status changes and special permission fees.

Custodial receipts are broken out in the following general receipt funds:

Fund                                                                2009         2008
Fines, Penalties and Forfeitures                                  $ 843,000     $ 182,513
General Fund Proprietary Receipts (user fees)                         273,218     299,947
Refund of User Fees                                                     (977)      (4,210)
Total Custodial Collections                                       $ 1,115,241   $ 478,250




                                                16
NOTE 15. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET

FMC has reconciled its budgetary obligations and non-budgetary resources available to its net
cost of operations.
                                                                                2009          2008
Resources Used to Finance Activities:
Budgetary Resources Obligated
 Obligations Incurred                                                        $ 22,817,981   $21,690,849
 Less: Spending Authority From Offsetting Collections and Recoveries              171,489       210,984
 Obligations Net of Offsetting Collections and Recoveries                      22,646,492    21,479,865
Other Resources
 Imputed Financing From Costs Absorbed By Others                               1,197,091      1,084,367
 Net Other Resources Used to Finance Activities                                1,197,091      1,084,367

Total Resources Used to Finance Activities                                    23,843,583     22,564,232

Resources Used to Finance Items Not Part of the Net Cost of Operations
 Change In Budgetary Resources Obligated For Goods,
   Services and Benefits Ordered But Not Yet Provided                  387,985                 573,393
 Resources That Finance the Acquisition of Assets                      225,000                       -

  Total Resources Used to Finance Items Not Part of Net Cost of Operations       612,985       573,393

  Total Resources Used to Finance the Net Cost of Operations                  23,230,598     21,990,839

Components of the Net Cost of Operations That Will Not Require or
Generate Resources in the Current Period
Components Requiring or Generating Resources in Future Periods
 Increase In Annual Leave Liability                                               45,214        17,799
 Other                                                                             5,249         1,968
 Total Components of Net Cost of Operations That Will Require or
   Generate Resources In Future Periods                                           50,463        19,767
 Components Not Requiring or Generating Resources:
 Depreciation and Amortization                                                    24,612          4,989
 Other                                                                                 -           (163)
 Total Components of Net Cost of Operations That Will Not Require or
   Generate Resources                                                             24,612          4,826

  Total Components of Net Cost of Operations That Will Not Require or
  Generate Resources In The Current Period                                         75,075        24,593
  Net Cost of Operations                                                     $ 23,305,673   $22,015,432




                                                  17
